CERTIFICATE OF SERVICE
No. 19-309
John C. Carney, Governor of Delaware,
Petitioner,
v.
James R. Adams,
Respondent.
I, Virginia A. Seitz, do hereby certify that, on this twenty-fourth day of
January, 2020, I caused three copies and an electronic copy of the Brief of Amici
Curiae Former Chief Justices of the Delaware Supreme Court in Support of
Petitioner in the foregoing case to be served by first class mail, postage prepaid, and
by email, on the following parties:
MICHAEL W. MCCONNELL
Wilson Sonsini Goodrich & Rosati, PC
650 Page Mill Road
Palo Alto, CA 94304
(202) 879-5000
mcconnell@law.stanford.edu
Counsel for Petitioner

DAVID L. FINGER
Finger & Slanina, LLC
One Commerce Center
1201 N. Orange Street, 7th Floor
Wilmington, DE 19801
(302) 573-2525
dfinger@delawgroup.com
Counsel for Respondent
/s/ Virginia A. Seitz
VIRGINIA A. SEITZ
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

